               OFFICE OF THE SPECIAL INSPECTOR GENERAL

                    FOR AFGHANISTAN RECONSTRUCTION


      INSPECTION OF ABDUL MANAN SECONDARY SCHOOL
        CONSTRUCTION PROJECT IN KAPISA PROVINCE:
   INSUFFICIENT PLANNING, SAFETY PROBLEMS, AND POOR
          QUALITY CONTROL AFFECT PROJECT RESULTS




                               October 26, 2009




SIGAR Inspection 10-2
             SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION
                                                   400 Army Navy Drive
                                                  Arlington, Virginia 22202


     October 26, 2009

     MEMORANDUM FOR: Commander, United States Forces-Afghanistan

                                  Commander, Combined Joint Task Force-82

     SUBJECT: SIGAR Inspection Report 10-2: Inspection of Abdul Manan Secondary School
     Construction Project in Kapisa Province: Insufficient Planning, Safety Problems, and Poor
     Quality Control Affect Project Results



     This report provides observations, findings, and recommendations of an inspection of a
     school construction project funded by the Commander’s Emergency Response Program,
     and managed by the Kapisa Provincial Reconstruction Team (PRT). This inspection
     focused on the management, design, and construction work for the Abdul Manan School
     located in the Nijrab District of Kapisa Province. This project cost the U.S. government
     approximately $250,000 dollars. It is one of 12 school construction projects initiated by
     the Kapisa PRT during the past 18 months.

     The Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR)
     conducted the inspection between June and August 2009. A summary of our report is on
     page ii. When preparing the final report, we considered written comments submitted by
     United States Forces-Afghanistan and incorporated information provided from these
     comments, as appropriate, into the report. These comments are reprinted in Appendix C
     of this report.

     The inspection was conducted under the authority of Public Law 110-181 and the
     Inspector General Act of 1978, as amended; and performed in accordance with the
     Quality Standards for Inspections issued by the Council of the Inspectors General on
     Integrity and Efficiency.

     Very respectfully,




     Guy Sands-Pingot
     Assistant Inspector General for Inspections
     Office of the Special Inspector General for Afghanistan Reconstruction




SIGAR Inspection 10-2: Abdul Manan School Construction Project                                   Page i
                                                      Special InspectorSummary       of Report:    SIGAR Inspection 10-2   October 26, 2009


                       SIGAR
                                                                        General for Afghanistan Reconstruction
                                                                      Inspection of Abdul Manan Secondary School
                                                                      Construction Project in Kapisa Province: Insufficient
                                                                      Planning, Safety Problems, and Poor Quality Control
    Special Inspector General for Afghanistan Reconstruction          Affect Project Results
Why SIGAR Did This Inspection –
SIGAR conducts inspections of Afghanistan infrastructure reconstruction projects to determine whether U.S. funds are used
appropriately, contract terms are met, adequate oversight is provided, and the project can be maintained upon turnover to Afghan
authorities.
What SIGAR Inspected -
In June and August 2009, SIGAR inspected the Abdul Manan Secondary School construction project located in a remote part of Nijrab
District, Kapisa Province, Afghanistan. At a cost of $250,000, this project is being built with Commander’s Emergency Response
Program (CERP) funds. Proposed by the Kapisa Provincial Reconstruction Team (PRT), the project was approved for implementation in
August 2008. The contract for this project centers on the construction of a two-story school building with a capacity for 800 students.

What SIGAR Found –
•     Inadequate Contract Preparation: The initial contract statement of work was deficient because it did not include two major
      construction elements for the school compound—a perimeter security wall and security guard house. These omissions were
      corrected by a contract modification in May 2009 which raised the price of the project by $42,000 from the original $208,000 cost.
      Additionally, the contract signed in the fall of 2008 awarded the project to the Provincial Director of Education. This award was
      subsequently determined to be in violation of CERP guidelines requiring a termination of the contract and re-bid of the project.

•     Defective Project Execution: SIGAR found several instances of poor quality construction including substandard masonry work.
      SIGAR also found numerous examples of safety violations including workers without the required personal safety gear.

•     Insufficient Project Quality Control and Quality Assurance Measures in Place: The Quality Control Plan submitted by the contractor
      was insufficient to ensure quality construction of a multi-level building project such as this school. Required progress reports were
      often not filed. In addition, SIGAR found that the PRT’s Quality Assurance Program was inadequate during the initial stages of this
      project primarily due to the relatively few times PRT representatives visited the construction site. Since SIGAR’s initial visit,
      however, quality assurance and control procedures have improved. For example, when told by the PRT Engineer that masonry
      work was unacceptable, the contractor replaced the substandard work with new construction. Following examination of this
      project, we questioned knowledgeable officials at the Regional Command, Task Force, and PRT as to whether standardized quality
      assurance guidelines that can be used by personnel responsible for project management at the PRT are available. SIGAR found that
      standardized quality assurance program guidelines for CERP-funded projects do not exist. Such standard guidelines would help
      avoid the types of inadequate oversight and quality assurance problems observed by SIGAR during this inspection.

What SIGAR Recommends - That the Commander, United States Forces-Afghanistan and the Commander, Kapisa PRT:
• Take actions to correct the multiple deficiencies noted in this report. This should start with ensuring both the statement of work and
  the design plan for this project reflect specific construction requirements such as site location and contractor capabilities.
• Develop standardized quality assurance guidelines that can be used to manage this and other CERP funded projects.
For more information, contact SIGAR Public affairs at (703) 602-8742 or PublicAffairs@sigar.mil



                                                                                                  Photos illustrating substandard
                                                                                                  excavation and masonry work.

                                                                                                  The photo at left shows the rear wall of
                                                                                                  the school structure constructed adjacent
                                                                                                  to the vertical wall of the excavation,
                                                                                                  leaving no room for the security
                                                                                                  perimeter wall. Contrary to accepted
                                                                                                  construction practices, the contractor
                                                                                                  was forced to excavate the area around
                                                                                                  the wall after it was built.

                                                                                                  The photo at the right is an example of
                                                                                                  substandard masonry work which had to
                                                                                                  be demolished and rebuilt. (Photos
                                                                                                  provided by SIGAR)



      SIGAR Inspection 10-2 Abdul Manan Secondary School                                                                                 Page ii
                                       Special Inspector General for Afghanistan Reconstruction




          Table of Contents

    Inspection Objectives -                                                                        1

    Project Background -                                                                           1
        Contract Requirements, Standards and Timings                                               2

    SIGAR Inspection Findings -                                                                    2
        Inadequate Contract Preparation and Award                                                  2
        Defective Project Execution                                                                3
        Insufficient Quality Assurance and Control Practices                                       4
    Conclusions -                                                                                  5

    Recommendations -                                                                              5

    Agency Comments and Response -                                                                 5

    Appendix A – Scope and Methodology                                                             6

    Appendix B – Abbreviations                                                                     7

    Appendix C – Agency Comments                                                                   8


    List of Figures and Photographs -
       Figure 1: Location of the Abdul Manan Secondary School                                      1
       Site Photo 1: View of the challenging terrain the school was built on                       2
       Site Photo 2: Underage laborers working on the project without protective                   4
       equipment
       Site Photo 3: SIGAR inspectors examining completed work                                     4
       Site Photo 4: PRT Quality Assurance Representative testing masonry work.                    4




SIGAR Inspection 10-2 Abdul Manan Secondary School                                                Page iii
                                          Special Inspector General for Afghanistan Reconstruction



          Inspection Objectives
          SIGAR conducts inspections of Afghanistan infrastructure reconstruction projects to determine
          whether U.S. funds are used appropriately, contract terms are met, adequate oversight is provided,
          and the project can be maintained upon turnover to Afghan authorities.

          SIGAR inspected the Abdul Manan Secondary School construction project managed by the Kapisa
          Provincial Reconstruction Team (PRT), which is a component of United States Forces-Afghanistan
          (USFOR-A), between June and August 2009 and conducted onsite inspections of the school
          construction work on June 21 and August 12, 2009.

          Details on our inspection scope and methodology are provided in Appendix A.


          Project Background
          This education infrastructure project was proposed by the Kapisa Provincial Reconstruction Team
          (PRT) pursuant to a request from the Kapisa Provincial Development Council in the summer of
          2008. The project is part of a larger school construction initiative approved for implementation in
          August 2008 with funding provided by the Commanders’ Emergency Response Program (CERP). 1




              Figure 1: The Abdul Manan School is located in the mountainous Nijrab District of Kapisa Province
              shown by the red star. (Map provided by the Afghanistan Information Management System)


          1
           This initiative was directed by Regional Command East, the higher headquarters of the Kapisa PRT and one
          of five regional commands that comprise the NATO-led International Security Assistance Force within
          Afghanistan. Regional Command East serves as the headquarters for the Combined Joint Task Force located
          at Bagram Air Field which reports to USFOR-A.




SIGAR Inspection 10-2 Abdul Manan Secondary School                                                                    Page 1
                                       Special Inspector General for Afghanistan Reconstruction




                                                                                                  Site Photo 1: View of the
                                                                                                  challenging terrain where the
                                                                                                  Abdul Manan School is being
                                                                                                  constructed. Extensive grading
                                                                                                  work was required at this site
                                                                                                  prior to construction. (Photo
                                                                                                  provided by SIGAR)



          As part of this initiative, 12 school construction projects have been initiated over the past 18
          months in Kapisa Province.

          Contract Requirements, Standards, and Timing

          The location for the school compound was chosen because it was unused government land but it is
          far from ideal for construction work. In discussions with the Provincial Director of Education, SIGAR
          was told that this was the only parcel of land in the community that was available to place the
          school. At an elevation of nearly 6,000 feet and located on the side of a bare mountain, the site is
          positioned approximately 200 meters up the side of a steep slope in an area prone to rock and mud
          slides. In order to prepare the site for construction, an access road had to be built and extensive
          excavation work that included cutting a level shelf off the side of the mountain had to be
          performed.

          The contract had to be modified because the original version left out both the perimeter security
          wall and a guard house from the statement of work. These are required structures for all schools
          built in Afghanistan, based on Ministry of Education standards. In its present form, the contract
          includes the construction of a two story, 16 classroom school building capable of serving over 800
          students, along with associated structures including a power generation building that will house a
          10 kilowatt diesel fuel generator; a 10 stall latrine; a hand operated water pump and reservoir; a
          stone masonry security perimeter wall; a guard house; and concrete walkways. The contractor is
          also responsible for site preparation; removal of rubble and refuse; and the manufacture and
          installation of 800 student bench desks.

          The statement of work specifies that the project should be completed within 270 days of the
          notice-to-proceed date of January 18, 2009. Construction effectively began in late April and has
          progressed slowly since.




SIGAR Inspection 10-2 Abdul Manan Secondary School                                                                             Page 2
                                       Special Inspector General for Afghanistan Reconstruction



          SIGAR Inspection Findings

          SIGAR found that the Abdul Manan Secondary School project is significantly behind schedule, over
          original cost estimates, and has not been in compliance with the quality of work standards as
          required in the statement of work and the national Ministry of Education design plans. SIGAR
          inspectors raised concerns about the quality of portions of the completed work and the structural
          integrity of the school building due to its location on a steep slope without a proper retaining wall
          to protect the building from rock falls, rushing water, and mud slides that occur annually in the
          spring months. SIGAR partly attributes these problems to a general lack of adequate quality
          control and assurance procedures.

          Inadequate Contract Preparation and Award
          The initial contract was signed in September 2008 and was awarded to the Provincial Director of
          Education as the prime contractor. Revised guidelines prepared by U.S. Central Command issued in
          late 2008 prohibited line ministries from serving as contracting parties for projects funded by CERP.
          As a result, the original contract was terminated and a new contract was put out for bid, delaying
          the start of the project for 5 months.

          A new contract was executed with a Notice to Proceed issued on 18 January 2009 for a
          performance period of 270 days. The contract specified that construction of the school and its
          additional supporting structures would be in accordance with both the contract Statement of Work
          and standards established by the Afghanistan Ministry of Education.

          Originally budgeted at $208,000 the project increased to over $250,000 in May 2009 because
          several key required structural components had to be added to the contract. These additions
          included the construction of a guard building and a stone masonry perimeter wall, structures that
          are required for every school built in Afghanistan, according to Ministry of Education standards.

          At the time of the SIGAR on-site visit in August, the contractor had already spent over 200 days of
          the 270 days allowed by the contract. SIGAR believes that the contractor will be unlikely to
          complete the work on time.

          Defective Project Execution
          SIGAR found numerous violations of basic construction practices. Examples include the mixing of
          concrete by hand instead of in a mechanical mixer as required by the Statement of Work. Of
          particular concern is the stream located directly below the school site that is used as a source for
          potable and irrigation water for the local community. As the design plan is currently configured, it
          appears that the discharge from the 10-stall latrine serving almost 1,000 students will eventually
          contaminate the stream. Although SIGAR found evidence that this concern was repeatedly raised
          with the contractor by the PRT, no documented solution could be found in the project file that
          addressed and corrected this deficiency. At the time SIGAR visited the project, construction of the
          latrine at the original site was continuing.

          SIGAR also found that although the contractor made extensive mention of safety requirements for
          his workers in the project work plan, numerous safety violations were noted by SIGAR. These
          violations included workers without head, eye, hand, or foot protection. (See Site Photo 2)




SIGAR Inspection 10-2 Abdul Manan Secondary School                                                                Page 3
                                       Special Inspector General for Afghanistan Reconstruction




                                                                                     Site Photo 2: Laborers working on
                                                                                     the project with no personal
                                                                                     protective equipment such as
                                                                                     hardhats, gloves or, in some cases,
                                                                                     even shoes. (Photo provided by
                                                                                     SIGAR)




                                                                                     Site Photo 3: View of SIGAR
                                                                                     inspectors with the PRT Quality
                                                                                     Assurance Representative
                                                                                     examining completed work.
                                                                                     SIGAR found that the floor of
                                                                                     the room had not been
                                                                                     compacted to prepare it for the
                                                                                     concrete slab-on-grade. (Photo
                                                                                     provided by SIGAR)




                                                                                     Site Photo 4: View of PRT Quality
                                                                                     Assurance Representative testing the
                                                                                     mortar work for durability. Such testing
                                                                                     is critical to assess if the materials used
                                                                                     meet the standards specified in the
                                                                                     statement of work. In the case that
                                                                                     materials do not meet these standards,
                                                                                     the Quality Assurance Representative
                                                                                     can order the contractor to redo the
                                                                                     work which might involve tearing down
                                                                                     already constructed sections of the
                                                                                     project. (Photo provided by SIGAR)




SIGAR Inspection 10-2 Abdul Manan Secondary School                                                                                 Page 4
                                       Special Inspector General for Afghanistan Reconstruction


          Insufficient Quality Assurance and Control Practices

          SIGAR’s review of project documentation found only intermittent submissions of progress reports
          and photographs from the early stages of this project. Such documentation should be submitted
          on a regular basis as noted in the statement of work and the contractor’s Quality Control Plan. This
          lack of consistent reporting on the part of the contractor, compounded by the inability of the PRT
          Quality Assurance Representative to be present for only about an hour every two weeks, has left
          the construction to continue largely without proper oversight.

          This lack of quality control documentation was reflected by a lack of consistent performance and
          construction methods that had to be corrected late in the project life cycle. Examples include the
          contractor stating he was ready to pour concrete into the floors of rooms that had not yet been
          properly compacted (see Site Photo 3) and the PRT Quality Assurance representative having to
          direct several portions of completed brick work to be demolished due to use of improper mortar
          mixture in their construction (see Site Photo 4).

          Since our initial visit to this project in June 2009, SIGAR notes that project oversight on the part of
          the PRT has improved. This improved oversight included additional presence and mentoring of the
          contractor by PRT engineer staff. As a result, SIGAR notes that the contractor’s quality
          performance has also improved.

          SIGAR asked the PRT Quality Assurance Representative if standardized guidance for conducting
          quality assurance checks exist. When told that he was unaware of any such guidance, SIGAR
          further queried knowledgeable officials at both the Combined Joint Task Force and USFOR-A if they
          were aware of any such standardized quality assurance guidance. In both cases, officials
          questioned knew of no such guidance. As a result SIGAR concluded that if the PRT had such
          guidelines a number of the early project management and construction deficiencies noted in this
          report might have been avoided.

          Conclusions
          This inspection revealed a number of significant deficiencies that include inadequate contract
          preparation, defective project execution, and insufficient quality assurance and control practices.
          Collectively, these deficiencies have contributed to a project which is significantly behind schedule,
          over original cost estimates, and has had problems meeting the quality of work required in the
          statement of work. SIGAR also found that standardized quality assurance program guidelines for
          CERP funded projects do not exist. We believe such standard guidelines would help avoid the types
          of inadequate oversight and quality assurance problems observed during this inspection.

          Recommendations
          SIGAR recommends that the Commander, U.S. Forces-Afghanistan and Commander, Kapisa PRT:
            • Take actions to correct the multiple deficiencies noted in this report. This should start with
              ensuring both the statement of work and the design plan for this project reflect specific
              construction requirements such as site location and contractor capabilities.

            • Develop standardized quality assurance guidelines that can be used to manage this and other
              CERP funded projects.



SIGAR Inspection 10-2 Abdul Manan Secondary School                                                                  Page 5
                                       Special Inspector General for Afghanistan Reconstruction



          Agency Comments and Response
          USFOR-A and the Kapisa PRT provided comments on a draft of this report. These comments
          highlighted the need for CERP guidance to ensure that statements of work accurately address the
          project requirements indicated in the basic design plans that the Afghan Ministry of Education
          issues for school construction projects. SIGAR believes that the PRT’s response that noted
          “standard ministry designs must be tailored to each construction site” is the correct approach that
          will assist the PRT in providing more effective oversight and project management. SIGAR revised its
          recommendations contained in the draft report to focus on the statement of work for this project.

          USFOR-A concurred with the information provided in the draft report citing the need for standard
          quality assurance procedures. The Kapisa PRT partially concurred with this recommendation and
          stated that although standardized quality assurance plans would be beneficial they should be
          flexible enough to allow the PRT engineers on-site to tailor specifics to each project’s unique
          requirements. In its response, the PRT pointed to potential complications that can affect the
          implementation of a quality assurance plan such as limited mobility and seasonal constraints.

          SIGAR acknowledges the need for flexibility in any standardized quality assurance plan to allow the
          onsite team to manage specific and unique conditions for each project. However, contractual
          requirements specified in statements of work must serve as the basis for project management and
          quality assurance.




          (This report was conducted under the SIGAR Inspection Project Code SIGAR-002c-I)




SIGAR Inspection 10-2 Abdul Manan Secondary School                                                              Page 6
                                       Special Inspector General for Afghanistan Reconstruction



          Appendix A - Scope and Methodology
          SIGAR performed the site visits for this project inspection in June 2009 and August 2009 in
          accordance with Quality Standards for Inspections issued by the Council of the Inspectors General
          on Integrity and Efficiency. The inspection team included the Assistant Inspector General for
          Inspections and an engineer inspector.

          In performing this project inspection, SIGAR:

              •   Reviewed contract documentation to include the following:

                  -    Contract W914BN-09-R-RP09 issued by the Kapisa-Parwan PRT on January 10, 2009;
                       relevant purchase orders, invoices, and vouchers dealing with the project; the
                       Statement of Work with all required specifications and accompanying documentation.

                  -    All documentation prepared and presented by the contractor dealing with the
                       construction of the school project.

                  -    The Project Survey and Assessment Plan including design drawings and specifications,
                       PRT quality assurance reports and records, construction progress photographs and
                       other documentation brought to the inspection team’s attention.

              •   Interviewed the previous and current PRT Commanders and other knowledgeable
                   members of the PRT staff; the contractor and work foreman who were present during the
                   on-site visits to the school construction site made in both June 2009 and August 2009; and
                   the Kapisa Provincial Director of Education.

              •   Conducted onsite inspections of the school on June 20 and August 12, 2009. Personnel
                  from the Kapisa PRT (including the previous and current PRT Engineer and members of
                  their staff) accompanied SIGAR inspectors during these visits.




SIGAR Inspection 10-2 Abdul Manan Secondary School                                                              Page 7
                                       Special Inspector General for Afghanistan Reconstruction



          Appendix B – Abbreviations
          CERP                      Commander’s Emergency Response Program
          PRT                       Provincial Reconstruction Team
          SIGAR                     Special Inspector General for Afghanistan Reconstruction
          USFOR-A                   United States Forces-Afghanistan




SIGAR Inspection 10-2 Abdul Manan Secondary School                                                Page 8
                                       Special Inspector General for Afghanistan Reconstruction



          Appendix C – Agency Comments




 [Note: When the draft of this report was sent for agency comment, it was tentatively designated as SIGAR Inspection 09-04.
 Since receiving agency comments, this report has been re-designated SIGAR Inspection 10-2 as it is being issued in FY 2010.]




SIGAR Inspection 10-2 Abdul Manan Secondary School                                                                      Page 9
                                       Special Inspector General for Afghanistan Reconstruction




SIGAR Inspection 10-2 Abdul Manan Secondary School                                                Page 10
                                       Special Inspector General for Afghanistan Reconstruction




SIGAR Inspection 10-2 Abdul Manan Secondary School                                                Page 11
                                        Special Inspector General for Afghanistan Reconstruction



          SIGAR Mission and Contact Information
          SIGAR Mission:            The mission of the Special Inspector General for Afghanistan
                                    Reconstruction is to enhance oversight of programs for the reconstruction
                                    of Afghanistan by conducting independent and objective audits,
                                    inspections, and investigations on the use of taxpayer dollars and related
                                    funds. SIGAR works to provide accurate and balanced information,
                                    evaluations, analysis, and recommendations to help the U.S. Congress, U.S.
                                    agencies, and other decision-makers to make informed oversight, policy,
                                    and funding decisions to:

                                    •    Improve effectiveness of the overall reconstruction strategy and its
                                         component programs;
                                    •    Improve management and accountability over funds administered by
                                         U.S. and Afghan agencies and their contractors;
                                    •    Improve contracting and contract management processes;
                                    •    Prevent fraud, waste, and abuse; and,
                                    •    Advance U.S. interests in reconstructing Afghanistan.

           Obtaining Copies of SIGAR                      To obtain copies of SIGAR documents at no cost, go to
           Reports and Testimonies:                       SIGAR’s web-site (www.sigar.mil). SIGAR posts all released
                                                          reports, testimonies, and correspondence on its web-site.

           To Report Fraud, Waste, and                    To help prevent fraud, waste, and abuse by reporting
           Abuse in Afghanistan                           allegations of fraud, waste, abuse, mismanagement, and
           Reconstruction Programs:                       reprisal contact SIGAR’s Hotline:

                                                             •   Web: www.sigar.mil/fraud
                                                             •   Email: hotline@sigar.mil
                                                             •   Phone DSN Afghanistan: 318-237-2575
                                                             •   Phone International: +1-866-329-8893
                                                             •   Phone DSN International: 312-664-0378
                                                             •   U.S. Fax: +1-703-604-0983

           Public Affairs:                               Public Affairs Officer
                                                           • Phone: 703-602-8742
                                                           • Email: PublicAffairs@sigar.mil
                                                           • Mail: SIGAR Public Affairs
                                                                    400 Army Navy Drive
                                                                    Arlington, VA 22202




SIGAR Inspection 10-2 Abdul Manan Secondary School                                                                     Page 12
